HHS/OIG-Audit--"Review of Outpatient Psychiatric Services at Psychiatric Hospitals for Calendar Year 1998, (A-01-99-00530)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services at Psychiatric Hospitals for Calendar Year 1998," (A-01-99-00530)
December 4, 2000
Complete
Text of Report is available in PDF format (1.62 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that, for Calendar Year 1998, psychiatric hospitals in the 10 locations reviewed were
paid a statistically estimated $57 million for unallowable or unsupported outpatient psychiatric services. The payments
were unallowable because the services were not documented in accordance with Medicare requirements and/or were not reasonable
and necessary. We recommended that the Health Care Financing Administration (HCFA) require Medicare fiscal intermediaries
to initiate recovery of payments for claims found in error and increase post-payment reviews of outpatient psychiatric
service claims. We also recommended that HCFA further emphasize its documentation requirements for all types of outpatient
psychiatric services through seminars, educational sessions, and newsletters. The HCFA concurred with our recommendations.